                   The Exempt Organizations Function’s
                     Market Segment Approach Needs
                          Further Development

                                  December 2004

                       Reference Number: 2005-10-020




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                   DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                        December 22, 2004


      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION


      FROM:                  Gordon C Milbourn III
                             Assistant Inspector General for Audit
                             (Small Business and Corporate Programs)

      SUBJECT:               Final Audit Report - The Exempt Organizations Function’s
                             Market Segment Approach Needs Further Development
                             (Audit # 200410015)


      This report presents the results of our review of the Exempt Organizations (EO)
      function’s efforts to implement a market segment approach. Specifically, we determined
      whether the EO function provided adequate oversight in planning and implementing its
      market segment approach. In addition, we assessed whether EO function management
      captured and analyzed the results of the market segment studies consistently and
      effectively to identify and address compliance trends, emerging issues, and outreach
      needs. This audit was part of our Fiscal Year (FY) 2004 Annual Audit Plan.
      In summary, in FY 2002, the EO function began conducting national market segment
      studies in some of its 42 market segments in support of its Compliance Program. The
      objective of the market segment studies involves establishing a compliance baseline for
      each market segment, measuring changes in compliance, and identifying compliance
      and educational needs. In addition, these studies are designed to profile each market
      segment by collecting data on the characteristics, geographical location, and
      examination coverage of each market segment.
      The Tax Exempt and Government Entities Division FY 2004–2005 Strategy and
      Program Plan calls for the continuation of the market segment approach. However, in
      June 2004, EO function management stated they were planning to slow down the
      initiation of future market segment studies due to competing demands on their limited
      resources. In addition, the Director, EO, stated in October 2004 that no market segment
      studies will be initiated in FY 2005 because the EO function’s limited resources will be
      used toward four key initiatives: credit counseling, antiterrorism, excess compensation,
                                                         2

and abusive schemes. Further, the Director, EO, stated that EO function management
is evaluating how to develop a more sophisticated workload selection system that will
provide better data to identify productive cases for compliance efforts. As such, the
Director, EO, indicated that an assessment will be made to determine how the market
segment approach fits into the EO function’s future strategy.
Based on our review of selected market segment studies,1 we determined the EO
function’s market segment approach needs further development to fully achieve the
purpose it was designed for as an EO function compliance activity. Although the market
segment approach was initiated in FY 2002, EO function management is experiencing
delays in developing an effective approach. Since implementation of this compliance
activity, 14 market segment studies have been initiated; however, as of July 26, 2004,
none of the studies had been completed. We determined that delays in completing the
initial market segment studies were due to inadequate planning and oversight, along
with a reallocation of EO function resources because of higher priority work that
emerged.
Although a key feature of the market segment approach was to select statistically valid
samples of cases to measure compliance levels of each segment, we were unable to
verify the methodology followed to identify the universe of organizations included in the
Business Leagues, Social Clubs, and Labor Organizations studies because no written
documentation was available for our review. In addition, we identified concerns related
to the number of cases sampled and the subpopulations reviewed within each market
segment.
EO function management has taken action to improve the market segment approach by
changing the methods used to provide oversight to each study and issuing guidelines
on developing and implementing the studies. However, further actions are necessary to
ensure the success of the market segment approach. We recommended the
Director, EO, finalize guidelines to provide additional guidance on how the market
segment studies should be implemented and reported. In addition, the Director, EO,
should revise the examination check sheets2 for future market segment studies to better
identify areas of noncompliance. Further, the Director, EO, should develop a structured
process to systemically capture, track, and analyze the results of the market segment
cases. Additionally, the Director, EO, should document a statistical sampling
methodology which specifies how the universe should be determined, which statistical
software package should be used, and whether samples of different subpopulations are
needed.
Management’s Response: Internal Revenue Service (IRS) management agreed with
our recommendations and proposed a number of actions to address the problems
identified in the report. These proposed actions include finalizing guidelines that will


1
  We judgmentally selected five market segment studies (Social Clubs, Business Leagues, Labor Organizations,
Hospitals, and the Arts and Humanities) initiated during the period October 2001 through July 2003.
2
  Check sheets are used to collect data identified by the revenue agents while conducting examinations of the market
segment cases under review.
                                          3

provide additional detail on implementing and reporting market segment studies and
revising check sheets used to capture future market segment study results so that areas
of noncompliance can be better identified. Furthermore, IRS management plans to
develop a structured process to systemically capture and analyze the results of market
segment cases to establish compliance baselines, facilitate measurement of compliance
levels, and identify education and outreach needs. IRS management also agreed to
document a statistical sampling methodology for each market segment study that will
specify how the universe should be determined and documented, which statistical
software package should be used, and whether samples of different subpopulations are
needed. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
                        The Exempt Organizations Function’s Market Segment
                               Approach Needs Further Development




                                                  Table of Contents


Background ............................................................................................... Page 1
Management Has Taken Action to Improve the Oversight of the
Market Segment Studies, but Additional Actions Are Needed to
Ensure Success ........................................................................................ Page 2
         Recommendations 1 through 3:.....................................................Page 9

A Documented Sampling Methodology Should Be Developed
to Ensure Market Segment Study Goals Are Met...................................... Page 9
         Recommendation 4: .......................................................................Page 13

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 15
Appendix II – Major Contributors to This Report ....................................... Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Current and Planned Exempt Organizations
Function Market Segment Studies ............................................................ Page 18
Appendix V – Management’s Response to the Draft Report ..................... Page 19
             The Exempt Organizations Function’s Market Segment
                    Approach Needs Further Development

                            The Exempt Organizations (EO) function of the Tax
Background
                            Exempt and Government Entities (TE/GE) Division has
                            responsibility for ensuring compliance with the Internal
                            Revenue Code sections and regulations that govern
                            organizations exempt from Federal income tax. Exempt
                            organizations include religious, charitable, social,
                            educational, political, and other not-for-profit organizations.
                            In January 2001, the Internal Revenue Service (IRS)
                            Commissioner required all IRS operating divisions to
                            prepare risk assessments of their market segments. As a
                            result, in October 2001, TE/GE Division management
                            issued its Report on Compliance Risk Assessments that
                            identified 35 distinct market segments within the EO
                            community. Later in Fiscal Year (FY) 2002, the EO
                            function expanded the number of its market segments
                            to 42. Currently, there is a proposal to reduce the number of
                            EO function market segments to 38.
                            In FY 2002, in support of its Compliance Program, the EO
                            function began conducting national market studies in some
                            of the market segments. EO function management stated
                            that its market segment studies are one part of its
                            Compliance Program, along with other EO function
                            compliance and education projects. The EO function’s
                            market segment approach is based on the recognition that
                            the EO community consists of widely diverse segments of
                            organizations with widely diverse needs. As a result, EO
                            function management recognizes that compliance and
                            education efforts may need to be tailored to the different
                            market segments.
                            The objective of the market segment studies involves
                            establishing a compliance baseline for each market segment,
                            measuring changes in compliance, and identifying
                            compliance and educational needs. In addition, these
                            studies are designed to profile each market segment by
                            collecting data on the characteristics, geographical location,
                            and examination coverage of each market segment. In the
                            long term, EO function management believes the studies
                            will help the EO function estimate the overall level of
                            voluntary compliance in the tax-exempt community and the
                            results of these studies will improve examination selection
                            and compliance. (A listing of the EO function’s current and

                                                                                     Page 1
                    The Exempt Organizations Function’s Market Segment
                           Approach Needs Further Development

                                   planned market segment studies for FY 2004 is presented in
                                   Appendix IV.)
                                   This review was performed at the EO function National
                                   Headquarters in Washington, D.C.; the EO Examinations
                                   Headquarters office in Dallas, Texas; and the EO
                                   Examinations field offices in Baltimore, Maryland, and
                                   Chesterfield, Missouri, during the period March through
                                   July 2004. The audit was conducted in accordance with
                                   Government Auditing Standards. Detailed information on
                                   our audit objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   Based on our review of selected market segment studies,3
Management Has Taken Action
                                   we determined the EO function market segment approach
to Improve the Oversight of the
                                   needs further development to fully achieve the purpose it
Market Segment Studies, but
                                   was designed for as an EO function compliance activity.
Additional Actions Are Needed to
                                   Although the market segment approach was initiated in
Ensure Success
                                   early FY 2002, EO function management is experiencing
                                   delays in making it effective. Since implementation of this
                                   compliance activity, 14 market segment studies have been
                                   initiated (7 in FY 20024 and 7 in FY 2003). However, as of
                                   July 26, 2004, no market segment study had been
                                   completed.
                                   Delays in completing the initial market segment studies
                                   were due to inadequate planning and oversight, along with a
                                   reallocation of EO function resources because of higher
                                   priority work that emerged, particularly medical/dental
                                   resident Federal Insurance Contributions Act5 claims and
                                   abusive tax avoidance transactions. In addition, since the
                                   market segment studies were implemented, they have been
                                   listed as one of the lower priorities for the EO Examinations
                                   office in each fiscal year. This trend continued in FY 2004,
                                   when the planned new market segment studies were
                                   postponed due to higher priority work.

                                   3
                                     We judgmentally selected five market segment studies (Social Clubs,
                                   Business Leagues, Labor Organizations, Hospitals, and the Arts and
                                   Humanities) initiated during the period October 2001 through July 2003.
                                   4
                                     One of these seven was the Donor Advised Funds study the EO
                                   function initiated in FY 2002 as a compliance strategy and converted to
                                   a market segment study in FY 2004.
                                   5
                                     26 U.S.C. § 3121 (2002).
                                                                                                   Page 2
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development

               The TE/GE Division FY 2004–2005 Strategy and Program
               Plan calls for the continuation of the market segment
               approach. However, in June 2004, EO function
               management stated they were planning to slow down the
               initiation of future market segment studies due to competing
               demands on their limited resources. In addition, the
               Director, EO, stated in October 2004 that no market
               segment studies will be initiated in FY 2005 because the EO
               function’s limited resources will be used toward four key
               initiatives: credit counseling, antiterrorism, excess
               compensation, and abusive schemes. Further, the Director,
               EO, stated that EO function management is evaluating how
               to develop a more sophisticated workload selection system
               that will provide better data to identify productive cases for
               compliance efforts. As such, the Director, EO, indicated
               that an assessment will be made to determine how the
               market segment approach fits into the EO function’s future
               strategy.
               Another factor in the delays was that EO function
               management’s initial level of oversight for the market
               segment studies was not adequate to effectively monitor the
               progress of these studies. Specifically, analysts in the
               Examination Planning and Program (EPP) office were
               initially responsible for providing oversight to the studies
               under the overall supervision of an EPP office manager.
               However, the EPP office analysts do not have supervisory
               authority over the revenue agents performing the market
               segment examinations, and some of the revenue agents
               worked higher-priority examination inventory ahead of the
               market segment studies. In addition, the EPP office
               manager position was vacant from June 2003 through
               May 2004, and several acting managers were responsible for
               monitoring the progress of the market segment studies.
               EO function management has taken action to improve the
               market segment approach by changing the methods used to
               provide oversight to each study. Specifically, an
               Examinations office group or area manager (“team leader”)
               is now responsible for overseeing each market segment
               study. The team leader is part of a coordinating committee
               consisting of representatives from the EO Examinations
               office (including an EPP office analyst), Rulings and
               Agreements office, TE/GE Division Counsel, and other
                                                                       Page 3
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development

               specialists who collectively are responsible for planning and
               implementing the studies. Team leaders are required to
               submit monthly status reports to the EPP office manager for
               consolidation and review by the Director, EO Examinations.
               Although team leaders have administrative responsibility for
               the studies, they do not generally have direct supervisory
               authority over the revenue agents working the cases.
               In addition, EO function management issued guidelines in
               March 2003 to provide detail on the roles and
               responsibilities of EO function personnel, procedures for
               developing and implementing the studies, the process for
               developing the project proposals (detailing the objective of
               the study and reasons why it was being conducted), the
               approval process to be followed, and the requirement for
               action plans detailing the tasks to be conducted and
               applicable milestone dates.
               We believe these actions will assist EO function
               management in implementing its market segment approach.
               Our review of the Arts and Humanities study, initiated in
               July 2003, indicates that EO function management has
               improved the oversight in the planning stages of this study
               based on the new guidelines. However, further actions are
               necessary to ensure the success of the market segment
               approach. Specifically:
                  •   Additional guidelines are necessary to provide better
                      direction on how market segment studies should be
                      conducted and reported.
                  •   A process is needed to capture and systemically
                      track useful information to establish compliance
                      baselines, facilitate measuring compliance levels,
                      and identify education and outreach needs.
                  •   A statistical sampling methodology is needed to
                      ensure cases are consistently selected for the market
                      segment studies and the results of the market
                      segment examinations are useful to EO function
                      management. (The sampling methodology is
                      discussed later in the report.)




                                                                      Page 4
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development

               EO function management should finalize the guidelines
               to provide better direction on how the market segment
               studies should be conducted and reported
               Eleven of the 14 market segment studies were initiated
               before written guidelines for conducting the market segment
               studies were issued on March 18, 2003. For the initial three
               studies (Business Leagues, Social Clubs, and Labor
               Organizations), the examinations were scheduled for
               completion by March 31, 2003, so most of the work on
               these studies was conducted without written guidelines.
               Prior to issuance of the guidelines, there was little oversight
               of the projects because team leaders were not assigned. The
               former EPP office manager stated that the analysts did not
               have the authority to ensure the completion of the
               examinations. Additionally, there was no requirement for
               the preparation of status reports to ensure proper monitoring
               of the studies by EO function management, which also
               contributed to the delays. EO function management stated
               that it was difficult to develop procedures when the initial
               market segment studies were begun because they had never
               conducted this type of activity before and they needed to
               begin the projects to see what the procedures should entail.
               The March 2003 guidelines did not include adequate
               direction on what information should be reported related to
               the results of the market segment studies. Specifically, a
               report template had not been approved that details the
               format the report should follow and the information that
               should be included. In July 2003, the Director, EO,
               expressed concerns related to the lack of a report template
               and the need for its creation to ensure information useful to
               management is documented. Although a report
               summarizing the results of the Labor Organizations study
               was prepared in November 2003 and additional reports for
               the Business Leagues and Social Clubs studies were
               prepared in February 2004, these reports have not been
               finalized pending approval of the final report template.
               EO function management is currently revising the
               March 2003 guidelines to provide more specific direction on
               planning, conducting, and reporting the results of the market
               segment studies. EO function management plans to
               incorporate in its revised guidelines an attachment that
                                                                        Page 5
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development

               includes a report template. In addition, these guidelines will
               require EO Examinations office area managers, who have
               direct authority over the revenue agents conducting the
               market segment examinations, to be more involved than
               previously required in the planning of the market segment
               studies and associated examinations. This may enable the
               examinations to be completed timely. These guidelines are
               being revised with the input of team leaders, as well as EPP
               office staff members who worked on or with the projects, to
               apply lessons learned and establish best practices.
               The Government Accountability Office Standards for
               Internal Control in the Federal Government6 require that
               policies and procedures be clearly documented to ensure
               program results are achieved. Without detailed procedures
               on conducting market segment studies, there is a potential
               that the results of the studies may be further delayed and the
               goals of the market segment study program may not be met.
               Additional actions should be taken to ensure more useful
               information is captured and systemically tracked
               We determined that EO function management should take
               additional actions to ensure they achieve their goals of
               measuring compliance, developing profiling characteristics
               for each segment, and identifying compliance and
               educational needs. Based on our interviews with EO
               function personnel and a review of available documentation,
               we determined the check sheets developed to capture
               examination results for the initial market segment studies
               should have been better designed to identify areas of
               noncompliance. Additionally, EO function management has
               not developed a process to systemically track the results to
               facilitate trend analysis and to establish baseline compliance
               measures.
               EO function management should ensure the check sheets
               used to capture future market segment results identify
               more useful information. The check sheets used in the
               initial studies emphasized yes/no responses. This was not
               always sufficient to determine if there was a compliance
               issue. For example, the check sheets for 2 of the initial


               6
                   GAO/AIMD-00-21.3.1, dated November 1999.
                                                                       Page 6
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development

               market segment studies addressed whether an organization
               reported unrelated business income losses for over 3 years,
               but did not address whether these continuing losses were
               allowable. Additionally, preliminary results from the
               Hospitals study indicate there is not enough information to
               draw meaningful conclusions about compliance levels. For
               example, net operating losses were identified as a potential
               compliance issue, but the cause of the noncompliance was
               not clearly documented.
               EO function management agreed that the check sheets
               should be better designed to identify more useful
               information and is currently revising the check sheets for
               future projects to capture more complete noncompliance
               information. The check sheet for the Arts and Humanities
               study has not yet been finalized; however, our review of the
               draft check sheet showed that it has been designed to track
               more specific information than that tracked in the initial
               projects, which should result in more meaningful
               information for EO function management.
               When the check sheets for the Business Leagues, Social
               Clubs, and Labor Organizations studies were implemented,
               written approval of senior EO function management was not
               required. In addition, the team leader for the Hospitals
               study stated that the issue identification sheet7 had been
               developed prior to the team being formed. As a result, the
               team members did not have any input into the development
               of the issue identification sheet. The team indicated that
               they would have wanted more information gathered from
               the cases. These factors may have contributed to the
               reduced usefulness of the information captured for these
               initial studies. Effective with the March 2003 guidelines,
               the check sheets must be approved by the EO Examinations
               office and Rulings and Agreements office representatives on
               the coordinating committees. By identifying more useful
               information from the market segment studies, EO function
               management will be better able to determine compliance
               levels, target emerging compliance trends, and focus
               resources on applicable compliance and education activities
               to improve compliance in the specific market segments.

               7
                An issue identification sheet was used for the Hospitals market
               segment study to track issues identified during prior examinations.
                                                                                 Page 7
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development

               The results of the market segment examinations should
               be systemically tracked to facilitate trend analysis to
               improve compliance. Our audit work determined that the
               check sheets for the initial three studies were manually
               prepared by the revenue agents and included in the closing
               case files. Examinations office support staff responsible for
               closing the cases would extract the check sheets and forward
               them to the responsible EPP office analysts.8 The EPP
               office analysts reviewed the data and manually compiled the
               results in a paper format. In contrast, the results of the
               reviews for the Hospitals market segment have been input to
               a Microsoft Access® database to facilitate further analysis.
               Furthermore, the responsible EPP office analyst for the Arts
               and Humanities market segment indicated that the
               examination results for this segment will be tracked in
               Microsoft Excel. ® Using these five market segment studies
               as an example, EO function management will not be able to
               systemically analyze or trend the compliance results for
               three studies and will need to use different software to
               analyze and trend the remaining two studies. This will
               make it difficult to evaluate noncompliance trends across
               the tax-exempt community.
               The March 2003 guidelines require the results of market
               segment studies to be input to a database; however, EO
               function management has not implemented a process to
               systemically track the data results using one type of
               software. The draft revisions to these guidelines include a
               requirement that the results of future market segment studies
               be tracked in electronic format to allow agents to submit
               completed check sheets via email to the team leader and/or
               the EPP office analyst. A more structured process that
               consistently captures, tracks, and reports meaningful market
               segment study information would enable EO function
               management to conduct trend analyses to identify
               compliance information and focus their resources on
               appropriate enforcement and educational activities.



               8
                 Case closing procedures were changed as of October 10, 2003,
               requiring the revenue agent to fax the check sheet directly to the
               appropriate EPP office analyst prior to forwarding the case file for
               closure.
                                                                                  Page 8
                  The Exempt Organizations Function’s Market Segment
                         Approach Needs Further Development

                                 Recommendations

                                 The Director, EO, should:
                                    1. Finalize guidelines to provide additional detail on
                                       how market segment studies should be implemented
                                       and reported.
                                 Management’s Response: The Director, EO, agreed to
                                 finalize guidelines that will provide additional detail on
                                 implementing and reporting market segment studies.
                                    2. Ensure examination check sheets for future market
                                       segment studies are revised to better identify areas of
                                       noncompliance.
                                 Management’s Response: The Director, EO, agreed to
                                 revise check sheets used to capture future market segment
                                 study results to better identify areas of noncompliance.
                                    3. Develop a structured process to systemically capture,
                                       track, and analyze the results of market segment
                                       cases to establish compliance baselines, facilitate
                                       measurement of compliance levels, and identify
                                       education and outreach needs.
                                 Management’s Response: The Director, EO, agreed to
                                 develop a process to systemically capture, track, and
                                 analyze the results of the market segment cases to establish
                                 compliance baselines, facilitate measurement of compliance
                                 levels, and identify education and outreach needs.
                                 Although a key feature of the market segment approach was
A Documented Sampling
                                 to select statistically valid samples of cases to measure
Methodology Should Be
                                 compliance levels for each segment, we were unable to
Developed to Ensure Market
                                 verify the methodology followed by EO function
Segment Study Goals Are Met
                                 management to identify the universe of organizations
                                 included in the Business Leagues, Social Clubs, and Labor
                                 Organizations studies. We also identified concerns related
                                 to the number of cases sampled and the subpopulations
                                 reviewed within each market segment. Specifically, the
                                 documentation for these studies showed inconsistencies in
                                 the actual number of cases sampled and reviewed.
                                 Furthermore, it was unclear which subpopulations were
                                 reviewed within each market segment. In addition, the
                                 sample size for a statistical sample calculated by EO
                                                                                          Page 9
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development

               function personnel did not correlate to the sample size that
               we calculated. A clearly defined and accurate statistical
               sampling plan is critical to ensure cases are consistently
               selected for the market segment studies and the results of
               the market segment examinations are useful to EO function
               management in measuring compliance.
               No documentation was available to validate the
               methodology used by EO function personnel to identify
               the universe of organizations included in the initial
               studies
               Interviews with EO function management determined that
               the universe of cases for each market segment was selected
               from the Returns Inventory and Classification System
               (RICS).9 An EPP office analyst developed the specific
               criteria needed to identify organizations to include in the
               Business Leagues, Social Clubs, and Labor Organizations
               market studies and then forwarded the requests to an analyst
               to run the RICS query to identify the universe for each
               market segment study. However, no written documentation
               was available for our review to support how the universes of
               the market segments were selected and the criteria used to
               identify the specific organizations that were included in
               each of the market segments. According to the applicable
               analyst, most of the files were lost when the computer hard
               drive containing the information was corrupted.
               In addition, no listings were available to document the
               actual organizations that were included in the Business
               Leagues and Social Clubs studies. We obtained a list
               detailing the universe of organizations for the Labor
               Organizations study, but no documentation was maintained
               detailing the criteria used to identify these organizations.
               Without adequate documentation of how the universe of
               returns was identified or the criteria used to define the
               universe, EO function management cannot be assured the
               universe contains only those returns that meet the criteria for
               a particular market segment. As a result, any statistical
               samples may not accurately reflect the market segment. In

               9
                 The RICS is an IRS computer system that provides user access to
               return and filer information related to the filing and processing of EO,
               Employee Plans, and Government Entities forms.
                                                                                 Page 10
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development

               addition, EO function management will not have complete
               assurance that compliance results can be accurately
               projected across the population.
               The number of cases sampled was not clearly
               documented, and it was unclear which subpopulations
               were reviewed for the Business Leagues, Social Clubs,
               and Labor Organizations studies
               Our review of the approved project proposals, various status
               reports, the RICS listings, and the draft project reports for
               the Social Clubs, Business Leagues, and Labor
               Organizations market studies showed discrepancies in the
               number of cases sampled and reviewed. We discussed this
               with EO function personnel, who stated the differences
               could be attributed to oversampling of the cases or to the
               revenue agent expanding the examination to other tax years
               or tax returns. However, no documentation was provided
               that clarified the exact cause of these discrepancies.
               Interviews with EO function management indicated that
               management is concerned with measuring compliance levels
               and identifying issues related to 3 specific subpopulations
               within each market segment: 1) organizations with gross
               receipts greater than $25,000 that are required to file
               Form 99010 (filers); 2) organizations with gross receipts less
               than $25,000 that are not required to file Form 990 (small
               organizations); and 3) organizations required to file
               Form 990 but failing to file the return as required
               (nonfilers).
               However, we determined that the original samples for the
               Business Leagues, Social Clubs, and Labor Organizations
               market studies included all organizations regardless of filing
               requirements. Initially, EO function personnel reviewed
               only the filers. Subsequently, the senior EPP office analyst
               stated that approval was obtained to include small
               organizations as well as nonfilers in the studies. However,
               we were unable to determine if nonfiler cases were reviewed
               and included in the studies, and EO function management
               was unable to provide this information.



               10
                    Return of Organization Exempt From Income Tax.
                                                                     Page 11
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development

               To measure compliance levels, construct unique profiles,
               and identify compliance and educational needs for each of
               these subpopulations, the EO function should select a
               separate statistical sample for each subpopulation
               (i.e., filers, small organizations, and nonfilers). EO function
               staff indicated that only one statistical sample was taken for
               the Business Leagues, Social Clubs, and Labor
               Organizations studies. EO function management stated that
               they plan to revise the sample selection process in the future
               to capture information for each subpopulation. Based on an
               interview with the team leader and review of the project
               proposal for the Arts and Humanities study, we determined
               the Arts and Humanities team plans to select two statistical
               samples within this segment to better measure compliance
               issues for these subpopulations. One sample will include
               filers; the second sample will include small organizations
               that are not required to file. The Arts and Humanities study
               plans to include the nonfiler segment as part of the filer
               population.
               The sample size calculated by EO function personnel
               differed from the sample size calculated by the Treasury
               Inspector General for Tax Administration (TIGTA)
               The project guidelines for the Business Leagues, Social
               Clubs, and Labor Organizations market studies indicated
               that a sample size of 88 cases was necessary for each
               study.11 EO function management stated that these samples
               were based on a statistical software package provided by
               the TE/GE Division Research and Analysis function.
               We independently calculated the sample size using available
               statistical formulas and determined a sample size of
               96 cases should have been selected based on the confidence
               level (95 percent) and precision rate (10 percent) established
               by EO function management. We provided this information
               to an outside statistician contracted by the TIGTA, who
               confirmed that our sample size of 96 cases was correct. We
               discussed this issue with TE/GE Division Research and
               Analysis function management, who agreed that a sample
               size of 96 cases was correct based on the confidence level
               and precision rate established by EO function management.

               11
                  The sample for the Arts and Humanities study had not been selected
               at the time of our review.
                                                                             Page 12
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development

               According to Research and Analysis function management,
               the sample size of 88 cases was due to a rounding feature in
               the statistical software package. Specifically, the precision
               rate for a sample of 88 cases at a 95 percent confidence
               level is 10.45 percent. Although this does not affect the
               validity of the statistical sample, it should be considered by
               EO function management when reporting the market
               segment results and making any projections to the
               applicable universe.
               EO function management believed the statistical software
               package was sufficient because it was provided
               by the Research and Analysis function; therefore, the
               sample size of 88 was correct. However, a review of the
               documentation obtained from the team leader for the Arts
               and Humanities study determined the team may use a
               different statistical sampling package to select the sample
               for this study. Using this other statistical software package,
               the sample size for the Business Leagues, Social Clubs, and
               Labor Organizations would have been calculated as 96 cases
               (instead of 88 cases) using the same confidence level and
               precision rate as that used in the first software package.
               If a sufficient number of cases are not examined, there is a
               risk the examination results will not provide management
               with valid information that can be applied to the entire
               market segment. If this happens, EO function management
               will not be able to accurately baseline compliance levels for
               that market segment. A documented sampling plan should
               clearly define the objective of the testing, estimate the
               sample size, and determine how the sample size should be
               selected. This is critical to ensure a valid sample is
               consistently selected and the results can be used as intended
               by EO function management to develop valid baseline
               measures, effectively measure compliance levels, and
               identify education and outreach needs.

               Recommendation

               The Director, EO, should:
                  4. Document a statistical sampling methodology to be
                     used for each market segment study which specifies
                     how the universe should be determined, which
                                                                      Page 13
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development

                      statistical software package should be used, and
                      whether samples of different subpopulations are
                      needed.
               Management’s Response: The Director, EO, agreed to
               document a statistical sampling methodology for each
               market segment study that will specify how the universe
               should be determined and documented, which statistical
               software package should be used, and whether samples of
               different subpopulations are needed.




                                                                   Page 14
                   The Exempt Organizations Function’s Market Segment
                          Approach Needs Further Development

                                                                                      Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the Exempt Organizations (EO) function’s efforts
to implement a market segment approach. To accomplish the objective, we:
I.     Determined whether the EO function provided adequate oversight in planning and
       implementing its market segment approach.
       A.      Identified whether the EO function had developed clearly defined and measurable
               project goals for its market segment strategy.
       B.      Selected a sample of ongoing market segment studies to assess the EO function’s
               process for planning and implementing the studies. We judgmentally selected 5 of
               the 14 market segment studies (Social Clubs, Business Leagues, Labor
               Organizations, Hospitals, and the Arts and Humanities) initiated during the period
               October 2001 through July 2003. We used a judgmental sample due to time
               constraints and because we did not plan to project our results.
II.    Assessed whether EO function management captured and analyzed the results of the
       market segment studies consistently and effectively to identify and address, as
       appropriate, the compliance trends, emerging issues, and outreach needs in each market
       segment.
       A.      Assessed the methods used for capturing the market study results for the studies
               selected in Step I.B.
       B.      Determined whether EO function management was capturing and analyzing the
               information necessary to identify compliance trends, emerging issues, and education
               and outreach needs.
       C.      Determined whether the EO function had established a process to use the results of
               the market studies for enforcement and education and outreach activities that focus
               on the areas of noncompliance.




                                                                                            Page 15
                  The Exempt Organizations Function’s Market Segment
                         Approach Needs Further Development

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
Jeffrey M. Jones, Audit Manager
Theresa Berube, Lead Auditor
Cheryl Medina, Senior Auditor
Andrew Burns, Auditor
Donald Martineau, Auditor




                                                                                      Page 16
                 The Exempt Organizations Function’s Market Segment
                        Approach Needs Further Development

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Communications and Liaison, Tax Exempt and Government Entities Division
SE:T:CL
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Office of Legislative Affairs CL:LA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M




                                                                                  Page 17
                      The Exempt Organizations Function’s Market Segment
                             Approach Needs Further Development

                                                                                                Appendix IV


    Current and Planned Exempt Organizations Function Market Segment Studies

                          Market Segment Studies Initiated in Fiscal Year (FY) 2002
                                                  Social Clubs
                                               Business Leagues
                                              Labor Organizations
                                          Social Services Organizations
                                            Religious Organizations
                                            Community Foundations
                                             Donor Advised Funds1



                                 Market Segment Studies Initiated in FY 2003
                                            Colleges and Universities
                                                    Hospitals
                                  I.R.C. § 509 (a)(3) Supporting Organizations
                                             Fraternal Organizations
                                       Arts and Humanities Organizations
                                              Private Foundations
                                                 Elder Housing
                   Source: Status report as of April 1, 2004, obtained from the Exempt
                   Organizations (EO) Examinations office staff.



                         Market Segment Studies Planned for FY 2004 (not initiated)2
                                           Fund Raising Organizations
                                                 Private Schools
                                             Nonexempt Trusts
                   Source: FY 2004 EO function implementing guidelines.




1
  The Donor Advised Funds market segment study was originally a compliance strategy initiated in FY 2002 that the
Exempt Organizations function converted to a market segment study in FY 2004.
2
  Delays were attributed to limited resources and higher priority initiatives.
                                                                                                        Page 18
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development

                                                     Appendix V


  Management’s Response to the Draft Report




                                                         Page 19
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development




                                                     Page 20
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development




                                                     Page 21
The Exempt Organizations Function’s Market Segment
       Approach Needs Further Development




                                                     Page 22
